C@OCKLE

231] Douglas Street L ] B f E-Mail Address:
ega riefs
Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-309

JOHN C. CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
Vv.
JAMES R. ADAMS,
Respondent.

AFFIDAVIT OF SERVICE

J, Andrew Cockle, of lawful age, being duly swom, upon-my oath state that I did, on the 26th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE PUBLIC CITIZEN IN SUPPORT
OF RESPONDENT in the above entitled case, All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

ALAN B. MORRISON KAITLIN E. LEARY
GEORGE WASHINGTON Counsel of Record

UNIVERSITY LAW SCHOOL SCOTT L. NELSON
2000 H Street NW ALLISON M. ZIEVE
Washington, DC 20052 PUBLIC CITIZEN
(202) 994-7120 LITIGATION GROUP

1600 20TH Street NW
Washington, DC 20009
(202) 588-1000
kleary@citizen.org

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 26th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska & Choy
1 RENEE J. GOSS Queda ‘.

Notary Public Affiant 39456

My Comm. Exp. September 5, 2023

 

 
Michael W. McConnell

Wilson Sonsini Goodrich & Rosati, PC
1700 K Street NW

Washington, DC 20006
mmeconnell@wsgr.com
202-973-8800

Counsel of Record for Petitioner
John C. Carney, Governor of Delaware

David Lee Finger

Finger & Slanina, LLC

1201 N. Orange Street, 7th Fl.
Wilmington, DE 19801
dfinger@delawgroup.com
(302) 573-2525

Counsel of Record for Respondent
James R. Adams
